        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Management Controls over the
Department of Energy's American
Recovery and Reinvestment Act –
Michigan State Energy Program




OAS-RA-10-18                     September 2010
                                  Department of Energy
                                    Washington, DC 20585
                                       September 29, 2010


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audit Services
                         Office of Inspector General
SUBJECT:                 INFORMATION: Audit Report on "Management Controls over the
                         Department of Energy's American Recovery and Reinvestment Act -
                         Michigan State Energy Program"

BACKGROUND

The Department of Energy's (Department) Office of Energy Efficiency and Renewable Energy
(EERE) provides grants to states, territories and the District of Columbia (states) to support their
energy priorities through the State Energy Program (SEP). Traditionally, SEP received $40 to
$50 million in annual appropriations. The American Recovery and Reinvestment Act of 2009
(Recovery Act) expanded the SEP by authorizing an additional $3.1 billion to states using the
existing distribution formula. EERE awarded the grants after reviewing state plans summarizing
activities for achieving SEP Recovery Act objectives, including preserving/creating jobs; saving
energy; increasing renewable energy sources; and, reducing greenhouse gas emissions. States
are encouraged to use these funds not only to support current energy projects but also to aid
sustainable programs that will provide lasting benefits. EERE program guidance emphasizes
that states are responsible for administering the SEP within each state, and requires each state to
implement sound internal controls over the use of Recovery Act funds.

The State of Michigan (Michigan) received $82 million in SEP Recovery Act funds – a more
than 30-fold increase over Michigan's Fiscal Year 2008 SEP funding of $2.7 million. Per the
Recovery Act, this funding must be obligated by September 30, 2010, and spent by April 30,
2012, in accordance with the grant agreement. As part of the Office of Inspector General's
strategy for reviewing the Department's implementation of the Recovery Act, we initiated this
review to determine whether Michigan had internal controls in place to provide assurance that
the goals of the SEP and Recovery Act will be met and accomplished efficiently and effectively.

OBSERVATIONS AND CONCLUSIONS

We found that Michigan had established adequate internal controls over selecting Recovery Act
projects and accounting for related expenditures. However, the accomplishment of Recovery
Act goals could be impeded by Michigan's lack of effective procedures for assessing and
monitoring high-risk SEP projects. Further, we found that a year after being granted access to
Recovery Act SEP funding, Michigan had expended only a fraction of its funding.
                                        Internal Controls

Michigan had, for the most part, designed internal controls to effectively manage its SEP
projects. Michigan's controls ensured adequate separation of duties, appropriate segregation of
Recovery Act costs, and transparency in SEP reporting. Further, we found that Michigan
selected appropriate projects to receive Recovery Act funds in that they employed a systematic
process to evaluate, rank, and select the projects that best met their SEP Recovery Act goals.

However, we identified weaknesses in procedures Michigan developed related to monitoring
projects to ensure they are accomplished effectively. For example, Michigan's Bureau of Energy
Systems, the state agency responsible for administering the program, had not identified high-risk
sub-recipients/projects. To ensure sub-recipient compliance with SEP grant terms and
conditions, Michigan planned to perform on-site monitoring of SEP projects it determined to be
high-risk. This determination was to be based on a risk assessment that considered the grant
recipient's financial position and business performance measures.

Although Michigan officials stated that they planned to develop a schedule for performing on-
site monitoring of high-risk sub-recipients, they had not performed a risk assessment to identify
such projects. Further, the procedures for performing this assessment were not developed until
May 20, 2010, and many of the risk factors in the assessment were vague and subjective in
nature. For example, one of the assessment factors labeled "Otherwise Responsible" was to be
answered with a simple yes, no, or manager comment. There was no explanation or guidance
provided to enable an objective response for the risk factor. Additionally, the assessment factor
labeled "Internal Controls" was to be answered with yes or no responses, but there was no
identification of what internal controls were to be considered or guidance in how to assign the
response. Specific risk assessment criteria and guidance for their use should be developed to
ensure consistent, objective application for determining high-risk projects.

Also, the Bureau of Energy Systems had not developed guidance for performing on-site
monitoring of high-risk sub-recipients. Bureau of Energy Systems personnel told us they did not
plan to develop new on-site monitoring procedures until the designated monitor had made at
least one site visit to a sub-recipient. They felt that this approach would result in a more
effective monitoring process. However, the lack of any procedures prior to performing initial
site visits to the sub-recipients may diminish monitoring effectiveness. Therefore, it may be
more effective to develop initial procedures and modify or enhance them based upon knowledge
gained during the first site visits. Delays in identifying high-risk projects and developing an
adequate monitoring plan increase the likelihood that SEP Recovery Act funds could be misused.

Additionally, our review revealed that the existing procedures for invoice review to be used by
grant managers in evaluating sub-recipient expenditures did not specifically address verification
of compliance with SEP Recovery Act requirements such as Buy American provisions and
Davis-Bacon wage requirements. However, after we informed Michigan officials of this
oversight, to their credit, the existing procedures were appropriately modified.




                                                2
                         Obligating and Expending Recovery Act Funds

Michigan received access to its SEP funding in April 2009, and as of June 30, 2010, $68 million
(83 percent) had been obligated, but only $7.3 million (9 percent) had been expended. One of
the key goals of the Recovery Act was to stimulate the national economy with the expedient
influx of Federal funds. Michigan's strategy for utilizing SEP Recovery Act funding includes
reducing energy consumption in state buildings, stimulating sustainable private industry
manufacturing in the renewable energy sector, and creating opportunities for wind energy.

Bureau of Energy Systems officials told us that they initially focused on renewable energy
manufacturing projects in order to create jobs and facilitate sustainable business growth in the
private sector. However, these manufacturing projects required an EERE programmatic review
and National Environmental Policy Act (NEPA) determinations, which were not obtained until
December 2009. Subsequent to obtaining the NEPA determinations, Michigan began awarding
renewable energy manufacturing grants and grants to reduce energy consumption in state
buildings in the latter half of December 2009. As we observed in our recent audit report Status
Report: The Department of Energy's State Energy Program Formula Grants Awarded Under
the American Recovery and Reinvestment Act (OAS-RA-10-17, September 2010), regulatory
requirements new to SEP have contributed to the slow pace of Recovery Act SEP spending.

                                          EERE Oversight

The internal control weaknesses discussed in this report can be attributed, at least in part, to
insufficient Department monitoring. EERE is required to perform monitoring of each state's SEP
activities annually; however, EERE had not performed on-site monitoring of Michigan's SEP
activities since the passage of the Recovery Act. Further, the EERE Project Officer for Michigan
told us the last on-site monitoring visit was in 2005, but was unable to provide us with any
documentation regarding the visit. EERE has provided Michigan state officials with guidance on
Recovery Act projects and visited the state to meet with Bureau of Energy Systems officials to
review project progress and meet sub-recipients; however, the Project Officer noted that this did
not serve as on-site monitoring. Timely on-site monitoring by EERE may have identified the
internal control weaknesses we discovered.

RECOMMENDATIONS

To improve on-going oversight and help ensure the success of Michigan's use of Recovery Act
funds, we recommend that the Deputy Assistant Secretary for Energy Efficiency, EERE, ensure
that:

     1. Annual on-site monitoring of Michigan's SEP activities is performed; and,

     2. Appropriate internal controls and procedures are in place to prevent inappropriate
        expenditures of Recovery Act funding, to include identifying and monitoring high-risk
        Recovery Act projects.




                                                3
MANAGEMENT COMMENTS

EERE concurred with the audit recommendations and stated that they will continue their close
oversight of Michigan's SEP activities. They stated that they have already conducted three
monitoring visits to Michigan under the Recovery Act and will continue regular on-site visits at
least twice a year moving forward. They added that Michigan has now refined or developed the
internal controls necessary to address the weaknesses identified in the report, including
establishing a system to identify and monitor any high-risk sub-recipients under the program.
They committed to work closely with the state to monitor the program and each project to
ensure the success of Michigan's SEP. EERE's comments are included verbatim in
Attachment 2. Michigan's verbatim comments are included as Attachment 3.

AUDITOR RESPONSE

EERE's comments are responsive to our recommendations.

Attachments

cc: Deputy Secretary
    Under Secretary of Energy
    Chief of Staff




                                               4
                                                                                    Attachment 1
                      OBJECTIVE, SCOPE, AND METHODOLOGY


OBJECTIVE

The objective of our audit was to determine whether the State of Michigan (Michigan) had
internal controls in place to provide assurance that the goals of the State Energy Program (SEP)
and the American Recovery and Reinvestment Act of 2009 (Recovery Act) will be met and
accomplished efficiently and effectively.

SCOPE

The audit was performed from January 2010 to May 2010. The scope of the audit was limited to
Michigan's SEP. We conducted work at the Michigan Department of Energy, Labor, and
Economic Growth and the Bureau of Energy Systems in Lansing, Michigan; and, obtained
information from the Department of Energy's (Department) Office of Energy Efficiency and
Renewable Energy (EERE) in Washington, DC.

METHODOLOGY

To accomplish the audit objective, we:

        Reviewed Federal regulations and Department guidance related to the SEP and the
        Recovery Act;

        Reviewed Michigan state legislation, plans, and procedures related to SEP and the
        Recovery Act;

        Reviewed Michigan's grant files for sub-recipients of Recovery Act funds;

        Interviewed personnel in Michigan's Department of Energy, Labor, and Economic
        Growth, Bureau of Energy Systems and Finance and Administration Services; and
        Internal Audit Services; and,

        Held discussions with the EERE Project Officer related to the oversight of the Michigan
        SEP.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings based on our audit objective. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies that may have existed at the time of
our audit. We did not rely on computer processed data to accomplish our audit objective.



                                                5
                                                                      Attachment 1 (continued)


We briefed Michigan officials on July 28, 2010, and Department officials on August 4, 2010.
An exit conference was held with Department officials on September 21, 2010.




                                              6
    Attachment 2




7
    Attachment 2 (continued)




8
    Attachment 2 (continued)




9
     Attachment 3




10
     Attachment 3 (continued)




11
                                                                    IG Report No. OAS-RA-10-18

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?


3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?


4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?


5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
